HHS/OIG, Audit -"Audit of Vermont's Medicaid Payments for Family Planning Services
Reimbursed at Enhanced Rates for the Period October 1, 2003 Through September 30, 2004,"(A-01-05-00002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Vermont's Medicaid Payments for
Family Planning Services Reimbursed at Enhanced Rates for the Period October 1, 2003 Through
September 30, 2004,"
(A-01-05-00002)
January 3, 2006
Complete
Text of Report is available in PDF format (282 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine if the Vermont Agency of Human Services, Office of Vermont
Health Access (the State agency) properly claimed Federal financial participation for claims
related to family planning services in accordance with applicable Federal regulations and
the Medicaid State Plan. From October 2003 through September 2004, the State agency improperly
claimed a total of $323,367 for Federal Medicaid reimbursement for family planning services.  The
State agency claimed these costs because it did not reconcile the quarterly claims for enhanced
reimbursement with paid claim activity for such services and because it did not have adequate
procedures in place to ensure that only eligible family planning services were claimed for
enhanced Federal funding.  We recommended that the State refund $323,367 for the Federal
share of unallowable Medicaid costs and implement procedures to ensure that future claims
are eligible for the enhanced Federal funding rate.  State officials agreed with our
recommendations.